BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. _ _
GIANINNA GALLARDO, AN INCAPACITATED PERSON, BY
AND THROUGH HER PARENTS AND CO-GUARDIANS PILAR
VASSALLO AND WALTER GALLARDO,

Petitioner,
V.

SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE FLORIDA AGENCY FOR HEALTH
CARE ADMINISTRATION,

Respondent.

As required by Supreme Court Rule 33. l(h), I certify
that the Petition for a Writ of Certiorari contains 8,235
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on March 9, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

